                DEFENSE LOGISTICS AGENCY
              PRODUCT VERIFICATION PROGRAM

Report No. D-2001-054                    February 21, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DLA                   Defense Logistics Agency
PVP                   Product Verification Program
                        Office of the Inspector General, DoD
Report No. D-2001-054                                                 February 21, 2001
   (Project No. D2000CF-0111.001)

                             Defense Logistics Agency
                           Product Verification Program

                                    Executive Summary

Introduction. This is the second of two reports being issued by the Inspector General,
DoD, which addresses various aspects of the Defense Logistics Agency Product
Verification Program. The Product Verification Program was established in January
1995 to consolidate test program management and activities for improved efficiency,
consistency, and reduced operational costs. In FY 1999, the Product Verification
Program managers reported operational costs of $6.6 million and tested over
10,000 items. This report addresses how products were selected for testing and how
the test results were used.

Objectives. Our objective was to evaluate whether the Defense Logistics Agency was
effectively managing the Product Verification Program. Specifically, the audit
determined how products were selected for testing and whether the program’s testing
plan was adequate. The audit also determined whether the Product Verification
Program managers and quality assurance specialists were using the test results to
identify contractor problems and purge potentially defective products from the Defense
Logistics Agency depots. We also reviewed the management control program as it
related to the overall audit objective.

Results. The Defense Logistics Agency product test center planning procedures were
logical and in conformance with test objectives. Testing was conducted using contract
specifications and objectives, appropriate test equipment was used, and suspected
deficiencies were evaluated. However, the product test selections and the use of test
results needed improvement. Random product test selections did not include all
products available for testing at all depots. For nonrandom testing, the Product
Verification Office did not fully consider management's quality priorities and initiatives
in test planning. As a result, funds for product testing were not used in the most
efficient manner and DoD lacked sufficient assurance that some critical products would
perform as expected (finding A). For two of the three Defense Supply Centers, test
failures were not consistently investigated and required actions on test failures were not
always taken. Inconsistent adjudication and ratings of test results hindered the two
Defense Supply Centers from resolving contractor issues for 36 percent of the
231 FY 1999 tests we reviewed, inflated quality ratings for as many as 54 contractors
and allowed potentially nonconforming products to remain available for issue
(finding B). See Appendix A for details on the management control program.



                                            i
Summary of Recommendations. We recommend that the Director, Defense Logistics
Agency, establish random testing selection methods, and implement nonrandom testing
initiatives. We also recommend that the Director, Defense Logistics Agency, develop
and implement uniform training for quality assurance specialists and supervisory review
procedures. We also recommend documenting causative factors of test failures and
determining whether nonconforming products should be suspended or reevaluated.

Management Comments. The Defense Logistics Agency stated that it is developing a
new random testing selection program by Fiscal Year 2002 that will include the
recommended criteria for selection. The Defense Logistics Agency agreed to
implement nonrandom testing initiatives prescribed in its agency guidance and agreed to
perform trend analyses from quality deficiency reports. The Defense Logistics Agency
also agreed to enhance existing training and supervisory review programs for Quality
Assurance Specialists and has begun to reevaluate and take appropriate corrective action
on the test results disclosing nonconforming products identified in this report. See the
Finding section of the report for a discussion of management comments and to the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                             i

Introduction
     Background                                               1
     Objectives                                               1

Findings
     A. Product Selection for Quality Testing                 2
     B. Use of Test Results                                  10

Appendixes
     A. Audit Process
         Scope                                               16
         Methodology                                         16
         Management Control Program Review                   17
         Prior Coverage                                      18
     B. Test Results - Defense Supply Center, Philadelphia
          (Alert Memorandum)                                 19
     C. Test Results - Defense Supply Center, Philadelphia
          (Command Reply)                                    21
     D. Report Distribution                                  22


Management Comments
     Defense Logistics Agency                                25
Background
     Product Verification Program. The Product Verification Program (PVP) was
     created in January 1995 by Defense Logistics Agency (DLA) Directive 4105.20.
     The Product Verification Program replaced the Contractor Assessment Product
     Evaluation Program. The program establishes the policies and responsibilities
     for laboratory testing and product verification and includes all testing performed
     within the supply centers. The primary objectives of PVP are to improve the
     process of delivering logistical support at reduced costs by:

         •   providing quality material that meets DLA customer requirements,

         •   reducing failure costs incurred for nonconforming material received
             from suppliers by verifying conformance of material to contract
             specifications, and

         •   utilizing supplier’s past performance for future source selections and
             “best value” contracting decisions.

     In FY 1999, 22 personnel were assigned to the PVP at the Defense Supply
     Centers. Over 4,700 products were randomly selected for testing and about
     5,600 products were tested on a nonrandom basis during FY 1999. These
     10,300 product tests resulted in nearly 1,200 laboratory test failures. The
     FY 1999 operating budget for the PVP was $6.6 million. The supply centers
     reported critical and major defects between FYs 1998 to 2000 ranging between
     12 and 18 percent of the DLA-managed products tested.
Objectives
     Our objective was to evaluate whether the Defense Logistics Agency was
     effectively managing the PVP. Specifically, the audit determined how products
     were selected for testing and whether the program’s testing plan was adequate.
     The audit also determined whether PVP managers and quality assurance
     specialists were using test results to identify contractor problems and purge
     potentially defective products from the DLA depots. We also reviewed the
     management control program as it related to the overall audit objective. See
     Appendix A for a discussion of the audit process and the management control
     program review.




                                         1
            A. Product Selection for Quality Testing
            The Product Verification Program office had not established a uniform
            process to select DLA managed products for quality testing. The process
            was ineffective because all available products were not included for
            random testing and product criticality was not considered. Further,
            management initiatives were not fully implemented to select products for
            testing based on factors such as high requisition rates, high cost, or
            high-potential failure rates for nonrandom testing. As a result, testing
            resources were not expended efficiently.


Random Selection Criteria and Application
    DLA Directive 4105.20, Product Verification Program for Inventory Control
    Points, January 20 1995, directs PVP offices at Defense Supply Centers to
    perform random laboratory testing of the following categories of incoming
    material.

        •   Material identified on new contracts less than 3 years old.

        •   In-stock material identified on contracts older than 3 years old.

        •   Material with the highest failure costs identified on weapon and safety
            critical parts.



    Sampling Assistance Model. DLA employed the “Sampling Assistance
    Model,” to generate a statistically valid selection of DLA managed products for
    quality testing. The model was developed and maintained by the Operations
    Research and Resource Analysis office. This office generated a quarterly listing
    of randomly selected products by national stock number for each Defense
    Supply Center. The PVP offices at the Defense Supply Centers used
    information from the quarterly listings to select inventory products for quality
    testing.

Products Subjected to Random Testing
    The random product selections did not include all products that were stocked at
    all the depots. The products subjected to random testing were limited to
    products stocked at the two primary distribution sites, San Joaquin, California,
    and New Cumberland, Pennsylvania, and the Richmond Distribution Center.
    Therefore, randomly selected products were not included from the remaining
    21 DLA depots (the nonprimary distribution sites). During June 2000, the
    Operations Research and Resources Analysis office provided information on the
    location of DLA managed products. Table 1 shows the location and percentages
    of DLA products that were part of the random sample universe.


                                        2
                             Table 1. Location of DLA Products
                                        (in millions)
                                                      Percent                       Percent
                        Total        Stocked at     Stocked at      Stocked at     Stocked at
                      Products        Primary        Primary       Nonprimary     Nonprimary
                    Stocked at all   Distribution   Distribution   Distribution   Distribution
                    DLA Depots          Sites          Sites           Sites          Sites

     Columbus           1,175           677             58            498             42
     Richmond            617            253             41            364             59
     Philadelphia        659
                       ______           326
                                      _______           49
                                                      ______          333
                                                                     ______           51
                                                                                    ______

      Total             2,451           1,256           51            1,195           49




    A total of nearly 1.2 million products, or 49 percent of the DLA stocked
    products, were located in the nonprimary distribution sites and were not
    included in the random sample universe. Examples of products stocked in
    nonprimary distribution sites that failed nonrandom testing but were never tested
    on a random basis were:

         •    a mirror head and support valve assemblies used on the heavy expanded
              mobility tactical truck, and

         •    a gear shaft that was housed on the F-18 fighter jet.

    These critical products should have been included in the universe for random
    testing.



Random Selection Categories
    For FY 1999, the sampling practices of the PVP offices at the supply centers
    were not in full compliance with the random selection categories outlined in
    DLA Directive 4105.20. The random sample universe was used to select from
    both a total and limited universe of DLA products scheduled for delivery within
    6 months of the fiscal quarter. Table 2 displays the categories and number of
    random tests conducted by each supply center during FY 1999.




                                                3
      Table 2. Random Tests Performed by Category – FY 1999

                                                    Columbus Philadelphia     Richmond
    Overall inventory (contracts > 3 years)           866           420          651
    New receipts (contracts< 3 years)*                 744           296          137
    Weapon system critical components                   -             -          806
    Customer item transfers                            785
                                                     ______           -
                                                                   ______          -
                                                                                ______

    Total                                             2,395            716       1,594
    *Limited to contracts with scheduled deliveries within 6 months.
.

Only the PVP office at the Richmond supply center randomly tested weapon
system critical components. The components included structural aircraft
components, helicopter rotor blades, jet turbine engines, and aircraft fuel system
components. The PVP offices at the Philadelphia and Columbus supply centers
did not randomly test inventory specifically identified as critical.

Random Tests of Critical Items. We further analyzed selected products to
determine criticality within the random selection categories. The supply centers
did not consider product criticality when DLA managed products were randomly
selected for quality testing. Table 3 shows that only 44 to 51 percent of the
randomly tested products were listed in the DLA database as critical products.



     Table 3. Criticality of Randomly Tested Products - FY 1999
                                                   Percent of     Non-       Percent of
                      Products      Critical
                                                    Critical     critical    Noncritical
                       Tested       Products
                                                    Products    Products      Products
    Columbus           900*          400              44           500           56
    Richmond           1,594         806              51           788           49
    Philadelphia        716
                      ______         363
                                    ______            51           353
                                                                  ______         49

      Total            3,210         1,569                        1,641
    *Review limited to 900 of the 2,398 random products tested.



The DLA guidance specifically addresses product criticality for random product
testing. Tests were required for items with the highest potential failure rate.
Critical products included all products identified as weapon system critical,
safety critical, or all other parts identified as critical applications.

Cost of Noncritical Items. We further analyzed the unit cost of noncritical
items that were selected for random testing in FY 1999. Unit cost information

                                               4
    was available for only 1,063 of the 1,641 (65 percent) noncritical items
    randomly selected for testing. Table 4 displays the unit cost range for the
    1,063 noncritical items randomly selected for testing.

                     Table 4. Unit Cost of Randomly Selected
                      Noncritical Items for Testing FY 1999
            Unit Cost Range                  Number of Items    Percent
       No unit cost data available                578             35
       Less than $2                               161             10
       $2 to $10                                  300             18
       $10 to $50                                 290             18
       $ 50 to $100                               114              7
       $ 100 to $ 500                             140              9
       $ 500 to $1,000                             32              2
       $1,000 to $2,000                            24              1
       Greater than $2,000                          2
                                                 ______            -
                                                                ______

        Total                                    1,641            100



    Over 50 percent of the noncritical items that were randomly selected for testing
    had unit costs of less than $100. Selecting low-cost, noncritical items for testing
    further compromised efficient expenditures of testing resources.

    Direct Vendor Deliveries. The PVP offices had no program in place for testing
    products procured through the Direct Vendor Delivery Program. These
    products were not stored in the depot system for DoD customer use. Instead,
    the vendors participating in this program shipped products directly to DoD
    customers. As of October 1999, 56 contractors were providing direct vendor
    delivery to DLA. This form of supply management is seemingly the way future
    deliveries will be completed. Accordingly, the PVP offices must address how
    these products will be incorporated into the Direct Vendor Delivery Program.

Nonrandom Selection Criteria
    The product verification program manager must develop and implement
    nonrandom testing initiatives to identify, preclude acceptance of, or remove
    high-potential-for-failure products from inventory. The initiatives should be
    based on customer or internal DLA management feedback, complaints, or
    random test results. Nonrandom tests were also directed for the following types
    of products:

           • with known or potential problems,

           • procured from high-dollar value or high-volume contracts,



                                         5
                  • products that were highly requisitioned, and

                  • procurements from contractors with poor past performance history.

    DLA Instruction 4155.2, “Quality Assurance Program Instruction for DLA,”
    February 17, 1999, further suggests that the supply centers perform trend
    analyses of products found to be deficient on a recurring basis.

    Table 5 displays the number of nonrandom testing conducted by the three PVP
    offices during FY 1999.

                        Table 5. Nonrandom Tests Performed - FY 1999
                                                           Number of Nonrandom-Tests
      Columbus                                                         2,807*
      Richmond                                                            407
      Philadelphia (general and industrial)                               341
      Philadelphia (clothing and textiles)                              2,032
                                                                       ______

          Total                                                         5,587
      *
          The Electronics Laboratory, prior to reorganization, conducted 1,675 of the 2,807 tests.




Nonrandom Selection Procedures
    Supply center PVP offices performed nonrandom tests on specific products, or
    groups of products, when Military Departments or quality assurance specialists
    at the supply centers requested assistance. The Defense Supply Center
    Philadelphia’s Clothing and Textiles Division also nonrandomly tested cloth
    samples prior to fabrication of clothing apparel. The PVP offices conducted
    nonrandom testing in support of the Counterfeit Material/Unauthorized Product
    Substitution Program. The offices also performed contract mandated testing on
    preaccepted products from a contractor, the first article produced by a
    contractor, and portions of the contractor’s production.

    Uniformity of Nonrandom Selection Procedures. DLA Directive 4105.20
    establishes guidelines for a nonrandom product verification selection process.
    The guidelines ensure that the most costly, critical, and safety-related products
    having a history of suspicious quality, are constantly subjected to quality review
    and possible verification testing. The following paragraphs summarize the
    nonrandom product selection processes implemented by each supply center
    during FY 1999.

                    •     Defense Supply Center, Columbus. The Columbus Electronics
                         Division tested electronics products from contractors with histories
                         of known problems. This testing was discontinued after the
                         Electronics Test Laboratory was reorganized and relocated from
                         Dayton, Ohio, to Columbus, Ohio. The Electronics Test

                                                     6
                  Laboratory conducted 1,675 tests prior to termination. During
                  FY 1999, the Columbus Center initiated a “test for cause” program
                  on new contract awards. This program compared new contract
                  awards against contractors with poor performance records. The test
                  for cause program was used exclusively at the Columbus Center.

              •    Defense Supply Center, Richmond. The Richmond Center
                  established the “product receipt-inventory control point/depot
                  evaluation pilot” program. This program identified newly acquired
                  products that were critical, highly requisitioned, and had a history
                  of past deficiencies. The program was terminated during FY 1999
                  after 100 tests resulted in two test failures. The Richmond Center
                  planned to initiate a flight safety critical program in FY 2000.
              •    Defense Supply Center, Philadelphia. The Philadelphia Center
                  had not established a nonrandom process to identify critical, highly
                  requisitioned products with a history of past deficiencies.
                  Nonrandom tests were performed to create new diagrams, eliminate
                  duplicate products, and support Army and Air Force quality issues
                  on critical products.

     The supply center PVP offices had not consistently implemented standard DLA
     quality initiatives or reported results of trend analyses of product tests that
     identified product quality concerns and provided the basis for nonrandom
     testing. Aside from the Counterfeit Material/Unauthorized Product Substitution
     program tests, testing mandated by contract or requested testing, the nonrandom
     selection process did not fully comply with the DLA directive.

Trend Analyses for Recurring Deficiencies
     Customers that requisitioned DLA managed products reported instances of poor
     quality or nonconformity on a Product Quality Deficiency Report. The report
     provided DoD managers with a valuable tool that quickly identified product and
     contractor deficiencies before the logistical pipeline was overburdened with
     nonconforming items. Prior IG, DoD, audit reports (and Finding B of this
     report) indicated that DLA had not fully obtained the potential benefits from the
     Product Quality Deficiency Report program. The quality assurance program,
     when effectively implemented, will provide an invaluable management oversight
     mechanism for DoD logistics management.

     FY 1999 Deficiency Reports. During FY 1999, DLA customers forwarded
     over 8,000 quality deficiency reports to the three supply centers’ for review and
     resolution. Quality assurance specialists were required to take corrective action
     on individual deficiency reports. However, during FY 1999, the supply centers
     did not perform any trend analyses of recurring deficiencies.

     Analysis of Deficiency Reports. We reviewed FY 1999 quality deficiency
     reports for DLA managed products that were defined as critical, requisitioned
     more than 15 times, and with unit values in excess of $250. We also reviewed
     historical deficiency reports. Overall, we reviewed 442 deficiency reports
                                         7
    corresponding to 245 DLA managed products and found that 37 products either
    warranted testing or highlighted a need for contractor surveillance. In addition,
    seven other products required updated technical data or revised diagrams. The
    following paragraphs are examples of recurring deficiencies where product
    testing was not proposed and corrective action was not taken.

    As of July 2000, several complaints were received regarding an AH-64 Apache
    helicopter power control lever. We questioned whether flight control
    mechanism testing was required to determine the nature of the problem. After
    conferring with the quality assurance specialists, the specialist agreed that
    testing would have determined the nature of the reported deficiency.

    As of July 2000, 10 deficiency reports were submitted on an electrical lead
    conduit device. The customers considered the conduit unserviceable. We spoke
    to PVP office personnel and they concurred that verification testing would have
    shown contractor noncompliance. A trend analysis will provide beneficial
    insight on those products that warrant testing and corrective action.

Recommendations, Management Comments and Audit
  Response
    A. We recommend that the Director, Defense Logistics Agency:

          1. Establish random testing selection methods in Defense Supply
    Center product verification programs to:

               a. Sample all stored depot products.

               b. Factor product criticality.

               c. Include direct vendor delivery procurements.

    Management Comments. The Defense Logistics Agency nonconcurred and
    stated that it is currently developing a new program to randomly select products
    for testing. The program uses a total quality cost methodology and will consider
    product selection criteria based on depot location, product criticality, delivery
    methods, and customer complaint trends. This program is scheduled to replace
    the current random selection method in FY 2002.

    Audit Response. Although the Defense Logistics Agency nonconcurred with
    the recommendation, actions proposed to improve the random selection of
    products for testing satisfies the intent of the recommendation. No further
    comments are required.




                                        8
       2. Implement nonrandom testing initiatives prescribed in Defense
Logistics Agency Directive 4105.20.

      3. Prepare trend analyses from quality deficiency reports to identify
nonconforming inventory for the following products:

           a. Critical.

           b. Highly requisitioned.

           c. High-cost, high-dollar, or high-volume.

           d. Items with known or potential deficiencies.
           e. Items from contractors with poor performance histories.

Management Comments. The Defense Logistics Agency concurred and will
implement nonrandom testing initiatives prescribed in the Defense Logistics
Agency Directive and will focus on testing particular items, locations, and
suppliers based on potential risk and past performance. Also, the Defense
Logistics Agency will direct its supply centers to implement existing Defense
Logistics Agency policy to perform trend analyses from quality deficiency
reports. The agency added that the program being developed will randomly
select products for testing and also will identify trends of repetitive product
deficiencies.




                                    9
            B. Use of Test Results
            Test failures were not always investigated and subsequent corrective
            actions were not always completed on tested products. Two supply
            centers inconsistently rated finalized test results and the other center lost
            accountability for 22 failed test results from an automated database.
            These test failures and lost results occurred because quality assurance
            specialists needed additional training and supervision. As a result,
            inconsistent ratings and adjudication of test results hindered the centers’
            efforts to resolve contractor issues of quality for 83 of 231 (36 percent)
            FY 1999 finalized product tests, inflated quality ratings for 54 DLA
            contractors, and made potentially nonconforming products available for
            issue.

Test Results Criteria
     Quality Assurance Policy. Defense Logistics Agency Directive 4155.2,
     “Quality Assurance Program for the Defense Logistics Agency Inventory
     Control Points,” October 10, 1997, prescribes that reports of deficient material
     should be adequately and completely investigated and properly documented.
     Quality assurance personnel were required to determine the necessary corrective
     action, address the cause of the deficiency, and reflect results of contractor-
     caused deficiencies in the contractor quality scoring system database.

     Quality Assurance Responsibility. Defense Logistics Agency
     Instruction 4155.2 “Quality Assurance Instruction for DLA ICP’s” (Supply
     Centers), February 17, 1999, discusses the use of the cause code, “simplified
     investigation,” for noncritical items, test results disclosing minor defects, or
     product tests of low dollar value. However, the quality assurance specialist was
     directed to assign the “contractor noncompliance” cause code when the
     specialist was convinced that the contractor caused the defect. The instruction
     further addresses corrective actions when quality testing reveals defective
     products. Corrective actions that addressed existing deficiencies included:
     issuing alert notifications to supply screening points and users, inspecting
     existing inventories, and recommending contractual warranty enforcement issues
     to the contracting officer. Other examples of corrective actions that precluded
     product deficiency reoccurrences were: recommending specification or drawing
     changes to the engineering support organization, if applicable; modifying the
     technical data file, if necessary; and providing deficient product information to
     contracting and logistics offices.

Investigating and Scoring Test Results
     In FY 1999, DLA reported that nearly 10,000 products were quality tested and
     nearly 1,200 products failed laboratory testing. The test failures ranged from
     minor defects that would not impair product use or operation, to major defects
     that would leave the products nonoperational. The PVP records disclosed that
     671 deficiency reports were finalized in FY 1999. We screened the deficiencies

                                          10
for 671 finalized FY 1999 Product Quality Deficiency Reports. The screenings
only included the deficiencies that addressed quality issues, resulted in a
reported cause code of contractor noncompliance, or a simplified investigation
or no investigation. We further screened the deficiencies for reported
disposition actions that resulted in tested products being returned to stock, used
without modification, or where no action on the tested product was deemed
necessary. A total of 231 of the 671 reported quality deficiencies met these
cause and disposition characteristics. For the 231 deficiencies, we appraised the
consistency of the quality assurance specialists’ evaluation process to determine
the cause of and resulting disposition action of the quality deficiency. Table 6
displays our analysis of the FY 1999 finalized test results.




          Table 6. Analysis of Finalized Test Results – FY 1999

                    Total                                      Percentage of
                 Test Results   Test Results   Test Failures   Test Failures
                 Finalized in    Reviewed        Properly      Not Properly
                  FY 1999                       Processed       Processed

Columbus            553            154            105               32
Richmond            101             60             44               34
Philadelphia         17
                   ______           17
                                  ______           17
                                                 ______             0
                                                                  ______

  Total              671            231            166              36




Defense Supply Center, Columbus. Quality assurance specialists properly
identified actual causes and provided appropriate disposition actions for 105 of
154 deficiency reports. The 105 deficiency reports included 72 reports that
properly identified contractor noncompliance as the cause of the deficiency.
The remaining 33 deficiency reports properly identified causes supporting a
simplified investigation or no investigation. Quality assurance specialists
improperly coded test results for 49 of 154 deficiency reports when the results
revealed that the contractor caused the test failures. Thirteen of the 49 test
failures were reported as major deficiencies. Twenty of the 49 test failures
involved critical items. We interviewed 13 quality assurance specialists that
reviewed 34 of the 49 deficiency reports to determine their rationale for not
coding the cause of the deficiency report as contractor noncompliance. The
quality assurance specialists provided the following information regarding the
test results.

    •     The quality assurance specialist could not identify the contractor or
          contract number of the tested product; thus, the specialist contended that
          no remedy was available from the contractor.



                                       11
    •   The defect was considered minor (although the reported deficiency was
        not cosmetic in nature).

    •   No previous complaints were raised against the contractor or the tested
        product.

    •   Low-dollar value or age of the tested product.

    •   Disagreement with the test results or with the product specifications.

The quality assurance specialists applied inconsistent criteria when the actual
causes of the deficiencies were disclosed. The specialists did not take any
corrective action or provide any test result notifications to the supply points for
22 of the 49 improperly coded deficiency reports. Twelve of the 22 products
that had no corrective action involved critical products, and 3 of the 12 critical
products encountered major test failures. These major test failures involved
avionics components for fighter and cargo aircraft, helicopters, and
microcircuits for fighter aircraft. Products with the same or similar defects may
be in the supply system because notifications were not circulated. We notified
the PVP manager of major test failures encountered on critical products in an
effort to facilitate the corrective action process. Uniform investigative
procedures should be addressed in a standard training program.

Defense Supply Center, Richmond. Quality assurance specialists properly
identified actual causes and provided appropriate disposition actions for 26 of
60 deficiency reports. Twenty deficiency reports properly identified contractor
noncompliance as the cause of the deficiency. The remaining six deficiency
reports properly identified causes that supported simplified investigations or no
investigations. Quality assurance specialists improperly coded test failures for
19 of 60 deficiency reports when test results revealed that the contractor was at
fault. The remaining 15 test failures were dismissed without investigation. Ten
of the 34 test failures were classified as major deficiencies, 17 of the 34 test
failures involved critical items. We interviewed 6 quality assurance specialists
that reviewed the 34 deficiency reports to determine their rationale for not
coding the cause of the deficiency report as contractor noncompliance. The
quality assurance specialists provided the following information regarding the
test results.
     • One quality assurance specialist summarily dismissed 15 deficiency
         reports contending that the age of the tested products and the lack of
         investigative personnel precluded further action.

    •   A possible inventory shortage of the test-failed product would result
        from suspending it from subsequent issue.

    •   The contracting office disagreed that the contractor was at fault and
        changed the cause of the deficiency.

    •   The quality assurance specialist did not wish to “punish” the contractor
        for minor defects disclosed in product testing.


                                    12
    Again, quality assurance specialists applied inconsistent criteria when the actual
    causes of the deficiencies were disclosed. The specialists did not take corrective
    action or provide notifications to supply points for 22 of 34 finalized deficiency
    reports. Fifteen of the 22 products that had no corrective action were critical
    and 7 of the 15 critical products had major test failures. These major test
    failures involved fighter and cargo aircraft, helicopters, radar equipment and
    tank parts. Inventory integrity may have been compromised by the lack of
    corrective actions taken on major failures involving critical products. We
    notified the PVP manager of major test failures encountered on critical products
    in an effort to facilitate corrective actions.

    Defense Supply Center, Philadelphia. Automated records from the
    Philadelphia center indicated 17 finalized FY 1999 quality deficiency reports.
    The reports properly identified the cause, and disposition actions were
    commensurate with the decisions rendered in the tested product. However, we
    discovered a management control weakness involving reporting test result
    failures to the automated database for subsequent investigation and dissolution.
    We identified 22 test failures representing over 38,000 components for F-15
    fighter jets, C-130 cargo aircraft, and the Navy DDG class destroyer. We
    addressed our concerns to the Commander, Defense Supply Center,
    Philadelphia, on June 8, 2000. The commander took immediate corrective
    action and provided detailed written responses on July 19, 2000. See Appendix
    B for the inventory integrity issue, and Appendix C for the corrective action
    responses.

Impact of Deficiency Report Codes
    Past Performance. A contractor’s past performance information was collected
    and translated into a numeric score using the automated best value computerized
    system. The contracting officer used this score in the evaluation process when
    awarding contracts. Contractors received performance scores for each Federal
    supply class procurement and may have multiple scores. However, contractors
    had one Defense Logistics Agency score, which compiled the contractor’s
    Federal supply score for all business conducted with the agency. The quality
    was reduced when deficiency report results were coded as contractor
    noncompliance.

    Contractor Quality Scores. We evaluated the impact on the Automated Best
    Value System for 60 of 83 deficiency reports that should have been coded as
    contractor noncompliance. The 60 deficiency reports affected the overall scores
    of 54 contractors. The Defense Supply Center, Columbus, scoring range should
    have been reduced between .05 percent and 20 percent for the average Federal
    supply class score. The Defense Supply Center, Richmond, scoring range
    should have been reduced between .05 percent and 13.3 percent for the average
    Federal supply class score. Conversely, we confirmed that contractor quality
    scores were properly reduced when the contractor was rated noncompliant on
    the deficiency report. When the deficiency reports were improperly coded as
    contractor compliance, scores for quality were overstated, did not reflect the
    actual contractor performance, and earned the contractor an advantage on future
    contract awards.
                                        13
    Nonconforming Product Implications. Financial and inventory quality
    implications were impacted when investigations and corrective actions were not
    completed on nonconforming products. Although test results disclosed
    deficiencies, little, if anything was done to ensure that deficient items were not
    in inventory or issued to customers. As a minimum, items from the same lots
    as the deficient items should be reviewed. Table 7 displays the potential
    inventory and financial impact of the 587 quality deficiency reports that were
    closed in FY 1999. We identified at least 362 contractors that provided DoD
    items reported as deficient on the 587 quality deficiency reports. These vendors
    provided at least 456,000 items, valued at over $3.9 million, between 1998 and
    2000.

         Table 7. Inventory Impact of FY 1999 Deficiency Reports on Quality Issues

       Supply              FY 1999         Identified    Identified      Products     Product Value
                      Deficiency Reports    Products    Contractors   Procured 1998
       Center                                                            to 2000

       Columbus              469              421         267            403,236       $3,364,934
       Richmond             101               93           90             42,277        $545,819
       Philadelphia           17
                          ________             17
                                           ________         5
                                                        ________          10,715
                                                                        ________         $47,078
                                                                                        ________

        Total                587                531        362          456,228        $3,957,831



    We recognize that not all the items purchased from the 362 contractors were
    deficient. However, we also believe that when a contractor produced one
    deficient item, others may follow, which increased the risks substantially. By
    not citing the contractor as noncompliant, financial remedy was lost. Inventory
    quality was also diminished when corrective actions were not taken on products
    that ultimately were issued and not fully operational. Major quality deficiencies
    should trigger the need for additional product tests from a contractor’s products
    to determine whether the deficiency was pervasive to the remaining inventory.
    Finally, additional testing of other products purchased from a contractor that
    provided nonconforming products may also be warranted.

Quality Assurance Management
    The deficiency report inconsistencies were not uniformly distributed at all
    supply centers. We analyzed inconsistent deficiency reports at the Defense
    Supply Centers, Columbus and Richmond. Forty-five of 49 (92 percent)
    deficiency reports were concentrated in 2 of the 4 operating elements at the
    Defense Supply Center, Columbus. Twenty-five of 34 (74 percent) of the
    deficiency reports were concentrated at 3 of the 11 operating elements at the
    Defense Supply Center, Richmond. Quality assurance specialists and
    supervisory reviews were not evident during the evaluation and final
    adjudication of deficiency reports at these supply centers. Quality assurance
    management at the Defense Supply Center, Columbus, is planning to institute

                                           14
    procedural instructions for supervisors to administer review and oversight
    procedures. A DLA training program would uniformly strengthen the decision
    making process for all personnel.

Recommendations and Management Comments
    A. We recommend that the Director, Defense Logistics Agency:

           1. Develop and implement quality assurance specialist training and
    supervisory review procedures at Defense Supply Centers to uniformly
    require the quality assurance specialist to:

                a. Determine whether the contractor was at fault as a result of a
    test failure generated from a product verification program test.

               b. Document the causative factors for product test failures.

               c. Code all contractor noncompliance performance test failures.

              d. Document disposition and corrective actions for failed product
    inventories with failed test results.

           2. Using FY 1999 test results, determine whether nonconforming
              products purchased from contractors and stocked in depots
              should be suspended or reevaluated.

    Management Comments. The Defense Logistics Agency concurred and stated
    that implementation of current Defense Logistics Agency Directives and
    Instructions will address all areas listed as deficient in this report. In addition,
    the agency stated that certification procedures outlined in the Quality Assurance
    Technical Development Program and through on-the-job training will properly
    address deficiencies in quality deficiency reporting. The Defense Logistics
    Agency stated that it has begun to reevaluate and take appropriate corrective
    action on the FY 1999 test results identified in this report.




                                         15
Appendix A. Audit Process

Scope
    Work Performed. For our analysis of product selection for quality testing, we
    obtained a listing of 4,705 FY 1999 randomly selected products from the
    Product Verification Program offices. We analyzed the criticality for 3,210 of
    the 4,705 randomly selected products and costs for 1,063 nonrandomly selected
    products to determine whether the products met the criteria in DLA Directive
    4105.20, “Product Verification Program for Inventory Control Points,"January
    1995. We analyzed 245 nonrandomly selected products to determine whether
    the supply centers selected products in accordance with management initiatives.

    For our analysis of the use of test results, we obtained and evaluated
    231 product test failures that were documented by the program. The supply
    centers compiled a listing of 1,163 FY 1999 laboratory test failures. We limited
    our analysis to 231 test failures generated from program testing that involved
    quality discrepancies with corresponding disposition action that resulted in the
    tested product being returned to stock, used without modification, or no further
    action was taken. We subsequently analyzed whether quality assurance
    specialists properly rated the test failures, their severity, and whether the test
    result warranted corrective action. We also measured the impact of improperly
    evaluated test results on the Automated Best Value System that measures a
    contractor’s quality performance. We measured 60 deficiency reports affecting
    the system scores of 54 contractors.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. There is no DoD-wide goal that specifically addressed
    quality of DoD material assets.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Inventory Management high-risk area.

Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    from the DLA Standard Automatic Material Management System. From this
    automated system and its subsystems, we obtained universes of random and
    nonrandom selected products for testing. We relied on the Defense Logistics
    Agency Customer Depot Complaint System for customer and PVP-generated
    Product Quality Deficiency Reports. We relied on the Automated Best Value
    System to obtain contractor quality scores. Although we did not perform a
    formal reliability assessment of the computer-processed data, the information
    obtained generally agreed with the information in the computer-processed data.
                                        16
    We did not find errors that would preclude use of the computer-based data to
    meet the audit objectives or that would change the conclusions in this report.

    Audit Type, Dates, and Standards. We performed this program audit from
    March to October 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. We included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals within DoD.
    Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In IG, DoD,
    Report No. D2001-002, “Defense Logistics Agency Customer Return
    Improvement Initiative,” October 12, 2000, we reviewed the adequacy of the
    Product Verification Program management controls over the screening of
    potentially nonconforming products received through customer returns. We
    reviewed the accuracy and the extent that the Customer Return Improvement
    Initiative exercised in notifying depots of potentially defective products. During
    this audit, we reviewed the adequacy of the management controls over the use of
    test results derived from Product Verification Program testing. Specifically, we
    appraised management controls, including supervisory review and oversight,
    that would consistently identify and record the source, disposition and possible
    correction of products that failed quality testing. We did not review
    management’s self-evaluation applicable to these controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses during the review of the Customer Returns Improvement
    Initiative Program and in the use of test results derived from Product
    Verification Program testing, as defined by DoD Instruction 5010.40.
    Management controls for the Customer Returns Improvement Program were not
    adequate to ensure that potentially defective products received through customer
    returns were made available for issue at some DLA depots. Likewise,
    management controls for the use of test results derived from Product
    Verification Program testing were not adequate to ensure that consistent and
    effective test results data was recorded and subsequent corrective action were
    taken to prevent potentially nonconforming products from becoming available
    for issue. Recommendations 1 and 2 of the Customer Returns Improvement
    Initiative Program report, and Recommendations B.1.a., B.1.b., B.1.c. and
    B.1.d. of this report, if implemented, will improve the overall integrity of DLA

                                        17
    managed products. A copy of both reports will be provided to the senior
    official responsible for management controls in the Defense Logistics Agency.

Prior Coverage
    Inspector General, DoD, Report No. D-2001-002, “Defense Logistics Agency
    Customer Returns Improvement Initiative Program,” October 12, 2000.




                                      18
Appendix B. Test Results – Defense Supply
            Center, Philadelphia (Alert
            Memorandum)




                      19
20
Appendix C. Test Results – Defense Supply
           Center, Philadelphia (Command
           Reply)




                     21
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
  Director, Product Verification Program
  Director, Defense Supply Center Columbus
  Director, Defense Supply Center Philadelphia
  Director, Defense Supply Center Richmond

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       23
Defense Logistics Agency Comments




                  25
26
27
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Nicholas E. Como
Lusk F. Penn
Samuel J. Scumaci
Chuck J. Chin
Cecil B. Tucker
Phillip R. Sartori
